App. 1
NOTICE
Decision filed 12/16/20.
The text of this decision may be changed or
corrected prior to the
filing of a Petition for
Rehearing or the disposition of the same.
2020 IL App (5th) 190306
NO. 5-19-0306
IN THE
APPELLATE COURT
OF ILLINOIS
FIFTH DISTRICT
TRISTA OETTLE,
Plaintiff-Appellant,
v.
EVA GUTHRIE and WILLIAM
J. CADIGAN, in His Official
Capacity as Chairman of the
Illinois State Board of Elections,
Defendants
(William J Cadigan, DefendantAppellee; The People of the State
of Illinois, Intervenor-Appellee).

)
)
)
)
)
)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Clinton County.
No. 19-L-3

Honorable
Stanley M.
Brandmeyer,
Judge, presiding.

App. 2
JUSTICE WELCH delivered the judgment of the
court, with opinion.
Justice Barberis concurred in the judgment and
opinion.
Justice Cates specially concurred, with opinion.
OPINION
¶1 This appeal raises the issue of whether section 299 of the Election Code (10 ILCS 5/29-9 (West 2018)) is
facially unconstitutional. For the reasons that follow,
we find the statute to be constitutional as it is a reasonable viewpoint-neutral regulation of a nonpublic
forum and, therefore, does not violate the first amendment of the United States Constitution, as applied to
the states through the fourteenth amendment.
¶2

I.

BACKGROUND

¶3 The following facts are undisputed. On November
6, 2018, the day of the midterm elections, the plaintiff,
Trista Oettle, reported to her assigned polling place in
Clinton County to cast her vote. One of the defendants,
Eva Guthrie, the election judge on that date, was asked
by the plaintiff whether she could take a photograph
with her completed ballot—commonly referred to as a
“ballot selfie.” Guthrie responded that the plaintiff
could “absolutely not” take the picture, and if the plaintiff did so, she “would go to prison.” Based on these
statements, the plaintiff did not take the photograph.
¶4 On November 18, 2018, the plaintiff filed a complaint in the circuit court of Clinton County under 42

App. 3
U.S.C. § 1983 (2018), claiming that section 29-9 of the
Election Code (10 ILCS 5/29-9 (West 2018)) was unconstitutional as it violated her first amendment freedom
of speech rights. On January 17, 2019, the State filed a
motion to intervene for the purpose of defending the
constitutionality of the Election Code, which the trial
court granted. On May 7, 2019, the plaintiff filed a first
amended complaint that was substantially similar to
the original complaint. The first amended complaint
named Guthrie as well as William J Cadigan, who
served as the then chair of the Illinois State Board of
Elections, as the defendants. Guthrie filed a motion to
dismiss pursuant to sections 2-615 and 2-619(a)(9) of
the Code of Civil Procedure (Code) (735 ILCS 5/2-615,
2-619(a)(9) (West 2018)). Cadigan filed a combined motion to dismiss and for summary judgment. On June
27, 2019, the court granted the motion to dismiss Guthrie from the case, pursuant to section 2-619(a)(9) of the
Code. Id. § 2-619(a)(9). On July 22, 2019, the court entered a written order granting Cadigan’s motion to dismiss, pursuant to section 2-619 of the Code. Id. § 2-619.
¶5

II.

ANALYSIS

¶6 The plaintiff appeals, arguing that section 29-9 of
the Election Code, which criminalizes the taking of a
photograph of a completed ballot, is an unconstitutional restriction on political speech. Under the Election Code (10 ILCS 5/29-9 (West 2018)), it is unlawful
for a person to knowingly mark his or her ballot so that
it can be observed by another person. A violation constitutes a Class 4 felony. Id. The constitutionality of a

App. 4
statute is a question of law that this court reviews de
novo. Walker v. McGuire, 2015 IL 117138, ¶ 12.
¶7 The first amendment of the United States Constitution, as applied to the states through the fourteenth
amendment, states that “Congress shall make no law
*** abridging the freedom of speech *** .” U.S. Const.,
amends. I, XIV. Intemreting the foregoing language,
the United States Supreme Court has ruled that a government “has no power to restrict expression because
of its message, its ideas, its subject matter, or its content.” Police Department of the City of Chicago v. Mosley, 408 U.S. 92, 95 (1972). The protection of the first
amendment is “at its peak” when the speech occurs in
a public forum. Silberberg v. Board of Elections of New
York, 272 F. Supp. 3d 454, 467 (S.D.N.Y. 2017) (citing
McCullen v. Coakley, 573 U.S. 464, 476 (2014)). However, with regard to a nonpublic forum, “it is also well
settled that the government need not permit all forms
of speech on property that it owns and controls.” International Society for Krishna Consciousness, Inc. v. Lee,
505 U.S. 672, 678 (1992) (citing United States Postal
Service v. Council of Greenburgh Civic Ass’ns, 453
U.S. 114, 129 (1981), and Greer v. Spock, 424 U.S. 828
(1976)).
“Even protected speech is not equally permissible
in all places and at all times. Nothing in the Constitution requires the Government freely to grant
access to all who wish to exercise their right to free
speech on every type of Government property
without regard to the nature of the property or
to the disruption that might be caused by the

App. 5
speaker’s activities. Cf Jones v. North Carolina
Prisoners’ Labor Union, 433 U.S. 119, 136 (1977).
Recognizing that the Government, ‘no less than a
private owner of property, has power to preserve
the property under its control for the use to which
it is lawfully dedicated,’ Greer v. Spock, 424 U.S.
828, 836 (1976), the Court has adopted a forum
analysis as a means of determining when the Government’s interest in limiting the use of its property to its intended purpose outweighs the interest
of those wishing to use the property for other purposes. Accordingly, the extent to which the Government can control access depends on the nature of
the relevant forum. * * * [W]hen the Government
has intentionally designated a place or means of
communication as a public forum speakers cannot
be excluded without a compelling governmental
interest. Access to a nonpublic forum, however, can
be restricted as long as the restrictions are ‘reasonable and [are] not an effort to suppress expression merely because public officials oppose the
speaker’s view.’ [Citation.]” Cornelius v. NAACP
Legal Defense & Educational Fund, Inc., 473 U.S.
788, 799-800 (1985).
Thus, in this case, we need to determine whether government-issued election ballots are considered public
or nonpublic forums.
¶8 Here, we first recognize that a government-issued
ballot is not a spatial or geographical location. Nevertheless, as the Supreme Court has noted, “metaphysical” forums are subject to the same forum analysis as
a spatial forum. See Rosenberger v. Rector & Visitors of
the University of Virginia, 515 U.S. 819, 830 (1995)

App. 6
(forum analysis of university’s funding of printing for
student publications); Perry Education Ass’n v. Perry
Local Educators’ Ass’n, 460 U.S. 37, 46-47 (1983) (forum analysis of school mail system); see also Cornelius,
473 U.S. at 801 (forum analysis of charitable contribution program).
¶9 “Ballots serve primarily to elect candidates, not
as forums for political expression.” Timmons v. Twin
Cities Area New Party, 520 U.S. 351, 363 (1997) (citing
Burdick v. Takushi, 504 U.S. 428, 438 (1992)). Here,
ballots in the state of Illinois are not traditional public
forums. An election ballot is issued by the government
for the primary function of electing candidates. It is not
a means through which a citizen traditionally expresses their political opinions. Instead, it is government regulated property that serves a specific timesensitive purpose. Therefore, we find that a government-issued ballot is not a public forum and is instead
a nonpublic forum.
¶10 The next step in our analysis addresses the content-based nature of the statute. A restriction on
speech is considered content based if, in order to determine whether the speech is subject to a government
restriction, one must look to “the topic discussed or the
idea or message expressed.” Reed v. Town of Gilbert,
Arizona, 576 U.S. 155, 163 (2015). Here, because one
must look to whether the ballot is completed to determine whether the statute has been violated, the statute is a content-based restriction.

App. 7
¶11 Having found that section 29-9 of the Election
Code is a content-based restriction of a nonpublic forum, we must determine whether it is reasonable and
viewpoint neutral. “[W]hen a state election law provision imposes only ‘reasonable, nondiscriminatory restrictions’ upon the First and Fourteenth Amendment
rights of voters, ‘the State’s important regulatory interests are generally sufficient to justify’ the restrictions.”
Burdick, 504 U.S. at 434 (quoting Anderson v. Celebrezze, 460 U.S. 780, 788 (1983)).
¶12 First, we find that section 29-9 of the Election
Code is viewpoint-neutral, as it restricts equally the
photographing of any completed ballot, regardless of
which candidates the voter selects.
¶13 Second, as to whether section 29-9 of the Election
Code is reasonable, “States may, and inevitably must,
enact reasonable regulations of parties, elections, and
ballots to reduce election- and campaign-related disorder.” Timmons, 520 U.S. at 358 (citing Burdick, 504 U.S.
at 433).
“Common sense, as well as constitutional law, compels the conclusion that government must play an
active role in structuring elections; ‘as a practical
matter, there must be a substantial regulation of
elections if they are to be fair and honest and if
some sort of order, rather than chaos, is to accompany the democratic processes.’ ” Burdick, 504 U.S.
at 433 (quoting Storer v. Brown, 415 U.S. 724, 730
(1974)).

App. 8
As the Appellate Court, First District, has previously
noted, “Section 29-9 of the [Election] Code, the
unlawful-observation-of-voting statute, safeguards
voter privacy, protecting voters from potential coercion,
intimidation and other influences and thereby preserves the integrity of the ballot.” People v. Deganutti,
348 Ill. App. 3d 512, 520 (2004).
¶14 In considering these cases, we find the statute to
be a reasonable restriction, as it neither limits a voter’s
access to a ballot, nor limits a voter’s choice in voting.
Instead, it effectually limits an outsider’s access to
viewing a voter’s completed ballot. In making this determination, we note that a ballot selfie is a simple
means by which a person could verify the vote of another. Absent the statute, a ballot selfie could be used
to verify that a person has voted a certain way in an
attempt to coerce or purchase votes. For example, an
employer could use an employee’s ballot selfie to verify
that an employee has voted the way preferred by the
employer under the threat of termination. Additionally, the existence or practice of the ballot selfie could
influence voters to cast ballots for candidates they believe are more publicly popular, rather than their personal preferred choice. There are, in fact, countless
scenarios and hypothetical situations in which a ballot
selfie could be used to coerce voters. Though the plaintiff is connect that other statutes exist criminalizing
the purchasing of votes and voter intimidation, those
statutes do not address the potential societal influences perpetuated through exposure to public opinion.
Ballot secrecy is one of the most important protections

App. 9
for a voter because it ensures that a voter may vote his
or her conscience, regardless of the person’s public
persona. For example, a person standing on a public
street, wearing a shirt supporting “party A’s” candidate
and vocally encouraging others to vote for party A’s
candidate, is still protected from any potential consequences should he or she in fact choose to vote for party
B’s candidate. T-shirts and public proclamations do not
have the effect of casting a vote for a candidate, only
the ballot has that power. Therefore, ballot secrecy is
of the utmost importance in protecting our system of
democracy. Section 29-9 of the Election Code protects a
voter’s right to truly vote his or her conscience, free
from coercion, influence, or bribery.
¶15 In addition to the protection of ballot secrecy, the
statute protects against inefficient use of time at the
polls. Allowing each voter to pose with and photograph
a completed ballot would inevitably lead to delays and
disorganization. Accordingly, we find it to be a reasonable restriction on the use of completed ballots.
¶16

III.

CONCLUSION

¶17 Therefore, we affirm the circuit court of Clinton
County’s dismissal of the plaintiff s complaint as section 29-9 of the Election Code (10 ILCS 5/29-9 (West
2018)) is constitutional as it does not violate the plaintiff s protections under the first amendment of the
United States Constitution.
¶18 Affirmed.

App. 10
¶19 JUSTICE CATES, specially concurring:
¶20 I concur with the majority’s decision to affirm the
circuit court’s dismissal of the plaintiff ’s complaint,
but for different reasons. I write separately because I
am concerned, particularly, for the newly-registered
and youngest Illinois voters, whose sole purpose in taking a “ballot selfie” is to display their enthusiasm, civic
pride, and patriotism. The basis for my special concurrence in the majority’s decision, however, derives from
my belief that this matter was not ripe for judicial review, as the plaintiff did not take the “selfie” and suffered no harm.
¶21 Section 29-9 of the Election Code provides as follows:
“§ 29-9. Unlawful observation of voting. Except as permitted by this Code, any person who
knowingly marks his ballot or casts his vote on a
voting machine or voting device so that it can be
observed by another person, and any person who
knowingly observes another person lawfully
marking a ballot or lawfully casting his vote on a
voting machine or voting device, shall be guilty of
a Class 4 felony.” 10 ILCS 5/29-9 (West 2018).
¶22 Section 29-9 of the Election Code protects a
voter’s right to vote his or her conscience, free from coercion, influence, or bribery. The current version of this
section was enacted in 1973 (Ill. Rev. Stat. 1973, ch. 46,
§ 29-9), decades before the advent of the “selfie.” Nevertheless, under section 29-9 of the Election Code, as
currently interpreted by some, the mere taking of a

App. 11
“ballot selfie” may result in a serious felony charge
against an unwitting voter. Such a penalty would, in
my view, seem to be an unreasonable restriction upon
an individual’s first amendment rights, when weighed
against the governmental interests sought to be protected.
¶23 In recent years, the Illinois General Assembly
has considered amendments to section 29-9 of the Election Code to provide that a person is not prohibited
from photographing his or her own ballot during the
voting process. See, e.g., 101st Ill. Gen. Assem., House
Bill 4104, 2020 Sess. However, until an amendment is
enacted, those who wish to take a selfie as a display of
civic pride might consider taking the photograph of
himself or herself, with an “I voted” sticker, outside the
area where ballots are cast.

No. 5-19-0306
Cite as:

Oettle v. Guthrie, 2020 IL App
(5th) 190306

Decision Under Appeal from the Circuit Court of
Review:
Clinton County, No. 19-L-3; the
Hon. Stanley M. Brandmeyer,
Judge, presiding.
Attorneys
for
Appellant:

Peter J. Maag, of Maag Law Firm,
LLC, of Wood River, for appellant.

App. 12
Attorneys
for
Appellee:

Kwame Raoul, Attorney General, of
Chicago (Jane Elinor Notz, Solicitor
General, and Frank H. Bieszczat,
Assistant Attorney General, of
counsel), for appellees.

App. 13
State of Illinois, Fourth Judicial Circuit
Clinton County
TRISTA OETTLE
v.
EVA GUTHRIE, et al.

)
)
)
)

2019 L 3

ORDER ON MOTION TO DISMISS
(Filed Jul. 22, 2019)
This matter was called for hearing on Defendant,
William Cadigan’s 2-615 Motion to Dismiss and Motion for Summary Judgment. The Court heard arguments of the Parties and took the matter under
advisement. Defendant, Guthrie’s Motion to Dismiss
was granted at the same hearing on this matter.
STATEMENT OF FACTS
Plaintiff filed an action pursuant to 42 U.S.C. Sec.
1983 challenging the constitutionality of 10 ILCS 5/299 and her inability to take a ballot ‘selfie.’ Under this
statute, it is a Class 4 felony to unlawfully observe a
person voting or to allow a person to observe oneself
voting. Specifically, Plaintiff alleges that section 29-9
and the actions of the election judge “in refusing to permit a ballot selfie” is “an overbroad, unconstitutional
assertion of any state interest in ensuring the integrity
of the electoral process, thereby depriving [Plaintiff ] of
her First Amendment freedom of speech rights to

App. 14
proudly display her participation in the electoral process.”
FINDINGS OF COURT
Illinois is a fact pleading jurisdiction, a pleading
must therefore not only set forth a legally recognized
cause of action, but also the facts essential to recovery
or the action must be dismissed. People ex. rel.
Fahner v. Carriage Way West, Inc., 88 Ill.2d 300,
(1981). A motion to dismiss under section 2-615 admits
all well-pleaded facts and all reasonable inferences
from those facts. Calloway v. Kinkelaar, 168 Ill.2d
312, (1965). It does not, however, admit either legal
conclusions or factual conclusions absent specific allegations. American Health Care Providers, Inc. v.
County of Cook, 265 Ill. App. 3d 919, (1st Dist.
1994). If, after disregarding any legal and factual conclusions, the complaint does not allege sufficient facts
to state a cause of action, the motion to dismiss should
be granted. Kerger v. Bd. Of Trustees, 295 Ill. 3d
272, (2d Dist. 1997).
Section 2-619 provides for a basis to bar a claim
based upon an affirmative matter that avoids the legal
effect of or defeats the claim. 735 ILCS 5/2-619(a)(9).
A 2619 motion to dismiss provides a mechanism for
disposing of legal issues of law or easily proved issues
of fact at the beginning of a case. Lang v. Silva, 306
Ill.App.3d 960, (1st Dist. 1999).
The Court reviews Section 2-619 Motions, regarding the issues and facts alleged in the light most

App. 15
favorable to the Plaintiff, to see if the Defendant is entitled to judgment as a matter of law. Turner v. 1212
Michigan P’ship, 355 Ill. App. 3d 885, (1st Dist.
2005). If not, the Court must deny the motion. Id.
To succeed on a section 1983 claim, the Plaintiff
must prove: (1) a deprivation of a right secured by the
Constitution or federal law and that (2) the defendant(s) were acting under color state law. Armato v.
Grounds, 766 F.3d 713, 719-20 (7th Cir. 2014) (citing Parratt v. Taylor, 451 U.S. 527, 535, 101 S.Ct.
1908, 68 L.Ed.2d 420 (1981)). See also Wilson v.
Warren County, 830 F.3d 464, (7th Cir. 2016).
To challenge the constitutionality of a state law,
the Plaintiff carries the “heavy burden of successfully
rebutting the strong judicial presumption that statutes are constitutional, and courts have a duty to
uphold the constitutionality of a statute whenever
reasonably possible, resolving any doubts in favor of
the statute’s validity. See People v. Rizzo, 2016 IL
118599, 61 NE 3rd 92, (2016). Also see People v.
Sharpe, 216 ILL 2d 481, (2005).
There are three different types of government forums where the analysis for a violation of freedom of
expression is examined: (1) traditional public forums,
(2) designated public forums, and (3) nonpublic forums.
Minnesota Voters Alliance v. Mansky, 138 S. Ct.
1876, (2018). The type of forum determines the standard of review a court must apply. With regard to
nonpublic forums, the government need only advance

App. 16
a viewpoint neutral and reasonable exception to be
constitutionally supported. Id.
CONCLUSIONS OF LAW
The Court is therefore presented with a need for
analysis of the balance between a Plaintiffs First
Amendment right of freedom of expression and the
government’s power to regulate that expression, as
well as the presumption of the validity of a statute
which is claimed by Plaintiff to be illegitimate as it applies to her.
When addressing a claim of a violation of the right
of freedom of expression guaranteed under the First
Amendment by a state statute, where the statute is
viewpoint neutral and reasonable in its application,
the statute will not be found to be unconstitutional.
Here, the Court finds that the location of the alleged
claim, a polling place, is a nonpublic forum which
thereby requires the government to advance a viewpoint neutral and reasonable exception to the otherwise right to freedom of expression under the First
Amendment. Here, the government has successfully
made that case.
Considering the arguments of Counsel and the
briefs presented, the Court is in agreement with the
State that the Plaintiff ’s Complaint should be dismissed per 2-619.

App. 17
ORDER
Accordingly, the Court finds in favor of Defendant
and against Plaintiff in Defendant’s 2-619 Motion to
Dismiss. This cause is dismissed pursuant to 735 ILCS
5/2-619. Any other request for relief is hereby denied.
This is a final and appealable Order.
So Ordered:
Date: July 22, 2019

Cc: Attys of Record

/s/ Stanley Brandmeyer
Honorable Judge

App. 18
SUPREME COURT OF ILLINOIS
WEDNESDAY, MARCH 24, 2021
THE FOLLOWING CASES ON THE LEAVE TO APPEAL DOCKET WERE DISPOSED OF AS INDICATED:
*

*

*

126758 – Trista Oettle, petitioner, v. Eva Guthrie
et al., etc. (William J. Cadigan, etc., et al.,
respondents). Leave to appeal, Appellate
Court, Fifth District. 5-19-0306
Petition for Leave to Appeal Denied.
*

*

*

